March 28, 2008

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Summary Audit on the Timeliness of Mail Processing,
         Transportation, and Delivery Operations in the Chicago District
         (Report Number NO-AR-08-003)

This report summarizes significant issues identified during our three separate reviews
on the timeliness of mail processing, transportation, and delivery operations in the
Chicago District located in the Great Lakes Area (Project Number 07XG034NO000).
We conducted the reviews based on requests from the Postmaster General/Chief
Executive Officer and Congress. Our objectives were to summarize the significant
issues discussed in those reviews and provide a progress report. Click here or go to
Appendix A for additional information about this audit.

Conclusion

We concluded the Chicago District made noticeable improvements at the end of fiscal
year (FY) 2007 but continues to have difficulty with the timely and efficient processing
and delivery of mail, resulting in mail delays, service degradation, and customer
complaints. The Postal Service acknowledged these conditions and took a number of
important actions to remedy the situation. As a result of recent management efforts,
service scores improved in all four First-Class categories as of Quarter 4 FY 2007,
compared to the prior three quarters.

In addition to recommendations provided in our prior individual reports, this report
identifies more opportunities to improve mail processing and delivery capacity as well as
efficiency, and recognizes actions the Postal Service has taken in response to our
previous recommendations. In this report, we are further recommending the Cardiss
Collins Processing and Distribution Center (P&DC) reduce workhours by 697,245 for an
associated economic impact of over $231 million by FY 2017.1




1
    We will report these funds as funds put to better use in our Semiannual Report to Congress.
Timeliness of Mail Processing, Transportation, and Delivery                                         NO-AR-08-003
 in the Chicago District


Delayed Mail Trends

While the Chicago District made some improvements in the timely processing of mail, it
continues to experience significant amounts of delayed mail. Total delayed mail at the
Cardiss Collins P&DC increased from 3 million pieces in FY 2004 to 404 million pieces
in FY 2007 — a 13,000 percent increase. Delayed mail also increased at Chicago
District delivery units, from 9.2 million pieces in FY 2004 to 11.3 million pieces in FY
2007 — a 23 percent increase.

However, we noted the Cardiss Collins P&DC made improvements at the end of FY
2007. For example, delayed First-Class Mail® decreased by 99.13 percent from
Quarter 2 FY 2007 to Quarter 4 FY 2007. Click here or go to Appendix B for our
detailed analysis of this issue.

Comparison to Similar-Sized Districts

Compared to similar-sized districts, the Chicago District had more delays in mail
processing operations. For example, in FY 2007, the Cardiss Collins P&DC delayed
almost 24 percent of mail volume, compared to similar-sized mail processing facilities’
average of just over 3 percent. Compared to other Group 12 sites, in FY 2007, the
Cardiss Collins P&DC had the highest percentage of delayed First-Class Mail, Standard
Mail®, and Package Service mail. The percentage of Periodicals mail delays at the
Cardiss Collins P&DC was comparable to other Group 1 sites. This large amount of
delayed mail puts revenues at risk since customers may seek alternative delivery
options that may provide more timely delivery, especially with regard to package mail
services. We estimated the amount of “revenue at risk” from delayed package mail in
FY 2007 was $2.9 million. 3 Click here or go to Appendix C for our detailed analysis.

Mail Processing, Transportation, and Delivery Capacity

The Chicago District generally had sufficient mail processing, transportation, and
delivery capacity to process its mail in a timely manner. However, there are
opportunities to further increase capacity by adjusting scheduling and staffing to match
the workload. For example, we found the Cardiss Collins P&DC had sufficient
automated equipment capacity and more than enough employees to process its
workload. In addition, the Chicago District used more carriers than the national
average, based on the number of routes, indicating that a sufficient carrier workforce
also existed. However, a high number of carriers on limited duty and sick leave
significantly reduced Chicago’s ability to staff the routes. Click here or go to Appendix D
for our detailed analysis of this issue.


2
  The Cardiss Collins P&DC is a Group 1 processing facility. A Group 1 facility processes the largest amount of
volume compared to other P&DCs.
3
  We deem revenue at risk to be revenue the Postal Service risks losing due to unreliable service that may convince
its customers to seek other providers.




                                                        2
Timeliness of Mail Processing, Transportation, and Delivery                                         NO-AR-08-003
 in the Chicago District


Mail Processing, Transportation, and Delivery Efficiency

We reviewed transportation throughout the Chicago District and did not identify any
issues that adversely affected the timely delivery of mail. However, the Chicago District
has opportunities to improve efficiencies as well as process and deliver mail in a more
timely manner. For example, the Cardiss Collins P&DC did not operate as efficiently as
similar-sized facilities. In order to achieve the average productivity of Group 1 sites in
FY 2007, the Cardiss Collins P&DC would need to reduce workhours by 697,245 which
could produce a cost avoidance of more than $231 million in labor savings during a 10-
year period.

Moreover, we found a strong relationship between efficiency and achievement of above
average service scores. For example, processing plants that were the top 10 in first
handled piece (FHP) productivity in FY 2007 all had above average overnight service
scores. Conversely, seven of the 10 sites lowest in FHP productivity had overnight
service scores below the national average. The relationship between efficiency and
service scores means those processing plants that efficiently process mail also process
it quicker than sites with lower efficiency. The emphasis on efficiency may also set the
general overall tone of the processing plant in ensuring that it consistently achieves both
performance and time goals.4

We also found the Cardiss Collins P&DC had difficulty meeting outgoing mail clearance
times, transportation dispatch times, the national average for sorting letter mail into
delivery sequence order, and the national productivity average for Delivery Barcode
Sorters (DBCS). In addition, we concluded improving office efficiency and street
management would also increase the Chicago District’s opportunities to deliver mail
before 5 p.m. Click here or go to Appendix E for our detailed analysis of this issue.

Internal Controls

Generally, internal controls concerning the timely processing, transporting, and delivery
of mail were functioning as intended. However, we found instances where the Chicago
District could improve controls over color-coding, the Address Management System,
and integrated operating plans. Click here or go to Appendix F for our detailed analysis
of this issue.




4
  The Committee of Sponsoring Organizations of the Treadway Commission stated the control environment is the
tone of the organization established by management, which greatly impacts the organization’s corporate culture and
its ability to meet its goals and overcome challenges.




                                                         3
Timeliness of Mail Processing, Transportation, and Delivery                              NO-AR-08-003
 in the Chicago District


Criteria

Title 39, U.S.C. Part 1, Chapter 1, § 101, states the Postal Service:

        . . . shall provide prompt, reliable, and efficient services to patrons in all
        areas . . . .

In the December 2007 Postal Service Strategic Transformation Plan states,

        The Postal Service will continue to provide timely, reliable delivery to
        every address at reasonable rates.

Effects

Mail processing and delivery delays in the Chicago District adversely affected service
scores and increased customer complaints. However, recent management efforts have
resulted in improvements; for example, service scores increased in all four categories
as of Quarter 4 FY 2007, compared to the prior three quarters. However, the Chicago
District’s Quarter 4 FY 2007 service score ranking was still below the national average
in all categories. In addition, the Chicago District ranked last in overnight performance,
although scores had improved by the end of FY 2007. Click here or go to Appendix G
to see the Chicago District scores and rankings from Quarter 4 FY 2004, to Quarter 4
FY 2007.

Mail delays also resulted in poor customer service and customer complaints increased.
For example, the average number of complaints totaled 493 in FY 2007, compared to
the average number of 334 in FY 2006 — an increase of over 47 percent. However, by
Quarter 4 of FY 2007, the average number of complaints totaled 150, compared to the
average number in Quarter 1 of FY 2007 of 296, a 49 percent decrease.

Another potential effect of longstanding delayed mail is that it puts revenues at risk. As
previously stated, we estimated the amount of “revenue at risk” from delayed mail in FY
2007 was $2.9 million. Click here or go to Appendix I for our cost analysis.

Causes

Based on our prior work, we concluded several factors contributed to the Chicago
District’s inability to process and deliver mail in a timely manner. We found:

    •    Mail processing supervision, accountability, and planning were inadequate.
         There was significant management turnover and mail processing supervisors did
         not adequately maintain automated equipment or adjust workhours to changes in
         workload.




                                                     4
Timeliness of Mail Processing, Transportation, and Delivery                    NO-AR-08-003
 in the Chicago District


    •   Management did not always adequately supervise delivery employees,
        implement delivery standard operating procedures, perform route inspections, or
        ensure the accuracy of the Address Management System.

We made recommendations to the Vice President, Great Lakes Area Operations; the
District Manager/Postmaster, Chicago District; and the Senior Plant Manager, Cardiss
Collins P&DC. Management generally agreed with the findings in these reports and has
taken or is taking corrective action on our recommendations. Click here or go to
Appendix J for recommendations made in prior reports.

Based on our follow-up work, we identified additional opportunities to improve efficiency
in mail processing and delivery. In particular, the Cardiss Collins P&DC needs to
substantially reduce workhours. We also found that a sufficient carrier workforce
existed in the Chicago District but employees on light duty and sick leave as well as
supervisor vacancies reduced the district’s ability to adequately staff routes. We
concluded management needs to adjust carrier routes to match the workload and
improve supervision of carrier office and street time. We also concluded that delivery
supervisors did not always conduct safety talks, ensure a safe work environment, and
adequately manage limited duty and absences.

Management Actions

The Chicago District continues to streamline delivery and processing operations to
improve service scores and ensure the timely processing of mail. Management has
numerous initiatives in place or planned to improve mail timeliness. They conducted a
top-to-bottom review of every aspect of mail processing and delivery operations from
repairing equipment to improving mail flows to evaluating staffing and scheduling.
These actions should increase capacity and efficiency and allow the Chicago District to
process and deliver more mail in less time. In addition, the Postal Service has begun to
improve efficiency at the Cardiss Collins P&DC by reducing workhours from FYs 2006
to 2007 by 219,000. Click here or go to Appendix H for Postal Service initiatives in
place or planned.

To improve the timely processing and delivery of mail, we recommend the Vice
President, Great Lakes Area Operations, ensure:

            1. The Chicago District Manager and Senior Plant Manager continue to
               monitor the processing and delivery of mail, to ensure these operations
               are timely.

            2. The Chicago District Manager and Senior Plant Manager conduct safety
               talks, correct potential hazards, and follow up on limited duty employees
               and unscheduled absences.




                                                     5
Timeliness of Mail Processing, Transportation, and Delivery                                          NO-AR-08-003
 in the Chicago District


             3. The Chicago District continues to improve mail processing efficiency by
                reducing workhours by 697,245, with an associated economic impact of
                over $231 million by FY 2017.

             4. The Chicago District Manager and Senior Plant Manager continue to
                improve delivery operations efficiency by improving supervision and
                holding employees accountable.

Click here or go to Appendix J for recommendations made in prior reports that remain
open.

Management Comments

Management agreed with our findings and recommendations and will complete
implementation of most corrective actions by March 2009.5 Their response explained
the Chicago District’s strategy to improve the timely distribution and delivery of mail, and
identified the Great Lakes Area’s plan to monitor and provide support to ensure the
Chicago District is able to minimize delays as well as improve service and cost
performance. Management also agreed to the $231,337,397 in funds put to better use
and $2,924,682 in revenue at risk.6 We will report these amounts in our Semiannual
Report to Congress. Click here or go to Appendix K to read management’s comments
in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. The OIG considers all
recommendations significant and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed. At the request of management, the OIG plans to conduct further follow-up work
in the Chicago District later this year.




5
  Corrective actions for recommendations 1, 4 and most of recommendation 2 will be complete by March 2009.
Management plans to review limited duty employees through the National Reassessment Process, and the date for
this action is yet to be determined. Management noted that realization of workhour savings could take until FY 2011.
Therefore, management set March 2011 as the target implementation date for remaining recommendations.
Management provided target completion dates in a subsequent email dated March 19, 2008, and in subsequent
discussions on March 28, 2008.
6
  Management agreed to the revenue at risk figure in the March 19, 2008, email.




                                                         6
Timeliness of Mail Processing, Transportation, and Delivery                NO-AR-08-003
 in the Chicago District


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Robert J. Batta, Director,
Network Processing or me at (703) 248-2100.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jacqueline M. Krage
    Katherine S. Banks




                                                     7
Timeliness of Mail Processing, Transportation, and Delivery                                     NO-AR-08-003
 in the Chicago District



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Chicago District serves ZIP Code areas 606 through 608 and covers over 255
square miles. The Chicago District serves a population of over 3 million and employs
approximately 9,000 employees. The Chicago District is located in the Great Lakes
Area. The map below shows the Great Lakes Area districts by three-digit ZIP Code.

                    Great Lakes Area
                    Customer Service Districts
                                           Lakeland
                                    498-499,530-532,534,535,
                                      537-539,541-545,549
                                                                       Greater Michigan
                                                                       486-491, 493-497



                                                                           Southeast Michigan
                                                                              480,483-485
                                             Chicago
                                             606-608


                                       Northern Illinois
                                       600-603, 610,611
                                                                          Detroit
                             Central Illinois                          481,482, 492
                      604,605,609,613-619,625-627




                           Gateway                                    Greater Indiana
                     620,622-624,628-631,                          460-469,472-475,478,479
                       633-635,650-653




The Cardiss Collins P&DC opened in April 1996 and covers over 1.7 million square feet.
It is the 30th largest mail processing plant in the postal network’s 273 plants.

In December 2006, the Chicago District began receiving negative media coverage
about mail delays. This negative media attention expanded during FY 2007 and elected
representatives requested the Postal Service to take immediate corrective action. In FY
2007, the Postal Service expended approximately $6.6 million in correcting the delayed
mail problems. In addition, the Postmaster General/Chief Executive Officer made a
commitment to resolve delayed mail problems in the Chicago District and requested the
OIG review.




                                                               8
Timeliness of Mail Processing, Transportation, and Delivery                                 NO-AR-08-003
 in the Chicago District


OBJECTIVES, SCOPE, AND METHODOLOGY

This report summarizes significant issues identified during our three separate reviews
on the timeliness of mail processing, transportation, and delivery operations in the
Chicago District located in the Great Lakes Area (Project Number 07XG034NO000).
We conducted the three reviews based on requests from the Postmaster General/Chief
Executive Officer and Congress. The objectives of this audit were to summarize the
significant issues discussed in those reviews and provide a progress report. To
accomplish the objectives, we reviewed selected processing, transportation, and
delivery operations; conducted interviews and observations; and analyzed mail volume,
workhours, productivity, service scores, and delayed mail trends.

We used computer-processed data from the National Work Hour Reporting System;
Web Enterprise Information System; Web End-of-Run System; Web Mail Condition
Reporting System (MCRS); Management Operating Data System (MODS); Origin-
Destination Information System; Service Issue Record System; Revenue, Pieces, and
Weight System; Transportation Information Management Evaluation System; Vehicle
Information Transportation Analysis and Logistics; Web Complement Information
System; Delivery Operations Information System (DOIS); Address Management
System; and the Enterprise Data Warehouse. We did not test controls over these
systems. However, we checked the reasonableness of results by confirming our
analyses and results with Postal Service managers and multiple data sources. In
addition, an OIG review of MODS concluded that the data in this system was valid and
reliable for the uses for which it is intended.7

We conducted this performance audit from October 2007 through March 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on December 21, 2007, and included their
comments where appropriate. Click here to return to report.




7
    Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      9
Timeliness of Mail Processing, Transportation, and Delivery                               NO-AR-08-003
 in the Chicago District


PRIOR AUDIT COVERAGE

                                           Report               Final Report         Monetary
           Report Title                    Number                   Date              Impact
1. Timeliness of Mail Processing at      NO-AR-07-012         September 28, 2007        None
    the Chicago, Illinois Cardiss
    Collins Processing and
    Distribution Center
2. Impact of Transportation on           NL-AR-07-008         September 28, 2007        None
    Chicago District Performance
3. Timely City Delivery – Chicago        DR-AR-08-001          October 11, 2007         None
    District
4. Chicago District Financial            FF-AR-07-254         September 28, 2007     $121,676 plus
    Accountability                                                                 $11,139,248 Non-
                                                                                       Monetary

This capping report summarizes the overall findings for the first three reports listed
above. The Chicago District Financial Accountability Capping report (the fourth report
listed above) disclosed significant weaknesses in the internal controls over financial
operations. There are a number of other related reports that are referenced in the
issued reports listed above.




                                                    10
Timeliness of Mail Processing, Transportation, and Delivery                                         NO-AR-08-003
 in the Chicago District


                             APPENDIX B: DETAILED ANALYSIS OF
                                  DELAYED MAIL TRENDS

While the Chicago District made some improvements at the end of FY 2007, it
continues to experience significant amounts of delayed mail.8 For example, total
delayed mail at the Cardiss Collins P&DC increased from 3 million pieces in FY 2004 to
404 million pieces in FY 2007 — a 13,000 percent increase. Delayed mail also
increased at the Chicago District delivery units, from 9.2 million pieces in FY 2004 to
11.3 million pieces in FY 2007 — a 23 percent increase.

However, we noted the Cardiss Collins P&DC made improvements at the end of FY
2007. For example, from Quarter 2 FY 2007 to Quarter 4 FY 2007, delayed First-Class
Mail decreased by 99 percent, delayed Periodicals mail decreased by 97 percent, and
delayed Standard Mail decreased by 79 percent. Package Services was the only mail
class with increased delays during the period but overall the Postal Service realized a
decrease of 80 percent in total delayed mail. See chart below.

 CARDISS COLLINS P&DC DELAYED MAIL TRENDS QUARTERS 1 TO 4, FY 2007

                              Delayed                          Delayed     Total
                                First-   Delayed     Delayed   Package    Delayed
                               Class    Periodicals Standard   Services    Mail
 Quarter 1 FY 2007           12,463,847    812,000 93,937,011 1,650,823 108,863,681
 Quarter 2 FY 2007            5,075,390  1,411,000 122,295,003        0 128,781,393
 Quarter 3 FY 2007            3,646,500    882,000 136,518,056    7,000 141,053,556
 Quarter 4 FY 2007               44,000      43,000 25,511,000   31,700 25,629,700
  Percent Change
  From Quarter 2                -99.13            -96.95             -79.14             n/a9            -80.10
   To Quarter 4

Similarly, the comparison of delayed mail as a percentage of total mail volume showed
the Cardiss Collins P&DC delayed approximately 9 percent of its total mail volume in FY
2006. In FY 2007, delays increased substantially and the Cardiss Collins P&DC
delayed 24 percent of mail volume. Delivery units’ delayed mail, on the other hand,
increased from 1.2 million to 11.3 million pieces from FY 2006 to FY 2007. This
increase was primarily the result of Great Lakes Area and Chicago District efforts to
improve the accurate and complete reporting of delivery delayed mail. Nevertheless,
the amount of delivery delayed only represented less than 1 percent of total delivery
volume in both years, indicating that the majority of delays occurred at the Cardiss
Collins P&DC.

8
  Mail delays occur when mail is not processed or dispatched by its programmed delivery day. The Postal Service
recognizes that some delayed mail is expected, although no specific targets have been established for large plants.
9
  The percentage of package services increase cannot be mathematically defined since the amount of the increase is
divided by zero.




                                                        11
Timeliness of Mail Processing, Transportation, and Delivery                         NO-AR-08-003
 in the Chicago District



Our analysis showed the majority of delayed mail was Standard Mail.10 For example, in
FY 2007 delayed Standard Mail accounted for approximately 46 percent of total delayed
mail processing volume and almost 97 percent of total delayed delivery volume. We
concluded the Chicago District needs to make greater efforts to process this mail in a
timely manner. The illustrations below show delayed mail on several occasions at the
Cardiss Collins P&DC.




                   On June 5, 2007, we counted 290 containers of delayed mail.




10
     Standard Mail consists of printed matter, flyers, advertising, and catalogs.




                                                              12
Timeliness of Mail Processing, Transportation, and Delivery                    NO-AR-08-003
 in the Chicago District




               Delayed Standard Letter Mail at the Cardiss Collins P&DC on
               November 27, 2007. This mailpiece should have been
               delivered on November 18, 2007.
Click here to return to report.
               APPENDIX C: DETAILED ANALYSIS OF COMPARISONS
                                TO OTHER FACILITIES

Compared to similar-sized facilities, in FY 2007, the Cardiss Collins P&DC had the
highest percentage of delayed First-Class Mail, Standard Mail, and Package Service
mail of any Group 1 site. The percentage of Periodicals mail delays at the Cardiss
Collins P&DC was comparable to other Group 1 sites. The chart below compares total
delayed mail in the Cardiss Collins P&DC to the average for Group 1 sites for FY 2006
and FY 2007. In FY 2007, the Cardiss Collins P&DC delayed almost 24 percent of its
mail volume, compared to the Group 1 average of over 3 percent.

                                 Percentage of Delayed Mail
                      (Cardiss Collins P&DC Compared to Group 1 Sites)
                                    FY 2006                     FY 2007
                            Cardiss           Group 1 Sites     Cardiss      Group 1 Sites
                          Collins P&DC         (Average)      Collins P&DC    (Average)
      Percent
     Delayed to
    Total Volume                9.23                 4.10        23.75           3.11

The Cardiss Collins P&DC made improvements in the timely processing of mail
between Quarter 2 and Quarter 4 of FY 2007. For example, in Quarter 2 FY 2007, the
Cardiss Collins P&DC delayed almost 29 percent of total mail compared to the Group 1



                                                    13
Timeliness of Mail Processing, Transportation, and Delivery             NO-AR-08-003
 in the Chicago District


average of almost 5 percent. In Quarter 4 FY 2007, the Cardiss Collins P&DC delayed
almost 6 percent of the mail, compared to the Group 1 average of slightly over 1
percent. Although the P&DC made improvements, significant efforts were still
necessary. For example, in Quarter 4 FY 2007, the Cardiss Collins P&DC delayed over
12 percent of Standard Mail, compared to the Group 1 average of approximately 2
percent. See chart on next page. Click here to return to report.




                                                    14
Timeliness of Mail Processing, Transportation, and Delivery                          NO-AR-08-003
 in the Chicago District



                     CARDISS COLLINS P&DC
PERCENTAGE OF DELAYED MAIL TRENDS COMPARED TO GROUP 1 AVERAGE
                    QUARTERS 1 TO 4, FY 2007

                                                  QUARTER 2 FY 2007     QUARTER 4 FY 2007
                                                 CARDISS                CARDISS
                                                              GROUP 1             GROUP 1
                                                 COLLINS                COLLINS
                                                              AVERAGE             AVERAGE
                                                  P&DC                   P&DC
           Percent Delayed First-Class             2.46         0.53     0.02       0.15
             Percent Delayed Priority              0.00         0.45     0.23       0.08
           Percent Delayed Periodicals             7.40         7.00     0.23       3.22
            Percent Delayed Standard               56.49        8.30     12.27      2.03
            Percent Delayed Packages               0.00         0.37     1.33       0.13
              Percent Total Delayed                28.86        4.57     5.98       1.19




                                                    15
Timeliness of Mail Processing, Transportation, and Delivery                               NO-AR-08-003
 in the Chicago District


               APPENDIX D: DETAILED ANALYSIS OF MAIL PROCESSING,
                    TRANSPORTATION, AND DELIVERY CAPACITY

The Chicago District generally had sufficient mail processing, transportation and
delivery capacity to process its mail in a timely manner, although opportunities existed
to further increase capacity.

Mail Processing Capacity

The Cardiss Collins P&DC had sufficient automated equipment capacity. The chart
below shows the percent of capacity for the five major automated equipment types used
at the Cardiss Collins P&DC. For example, the DBCS and Advanced Flat Sorter
Machines (AFSM) operated at approximately 80 and 82 percent, respectively, of
available capacity based on target productivity levels during FY 2007.

SELECTED AUTOMATED EQUIPMENT CAPACITY AT CARDISS COLLINS P&DC FY 2007

                  FY 2007
                                                CARDISS        CARDISS                                  PERCENT
 AUTOMATED         TOTAL         TARGET                                   POTENTIAL       ACTUAL
                                                COLLINS        COLLINS                                     OF
 EQUIPMENT        PIECES       PRODUCTIVITY                                VOLUME         VOLUME
                                              PRODUCTIVITY    WORKHOURS                                 CAPACITY
                 HANDLED
     DBCS      2,822,235,138      9,274           7,409         414,698   3,845,909,252 3,072,330,695    79.89
  AFSM 100      121,087,774       2,113           1,731         57,852     122,241,276   100,163,639     81.94
    *SPBS        24,395,554        366             243           29,455     10,780,530    7,166,533      66.48
    **APPS       17,248,444        630             564          19,057      12,005,910   10,755,487      89.58
 ***FSM 1000     15,774,053        744             394           65,882     49,016,208   25,974,421      52.99

*SPBS (Small Parcel Bundle Sorter)
**APPS (Automated Package Processing System)
***FSM (Flat Sorting Machine)

As part of management actions to improve and then maintain mail processing capacity
at the Cardiss Collins P&DC, the DBCSs and AFSMs were overhauled and an improved
preventive maintenance program was implemented to ensure proper maintenance for
all automated equipment.




                                                    16
Timeliness of Mail Processing, Transportation, and Delivery                 NO-AR-08-003
 in the Chicago District




                 On November 28, 2007, we observed maintenance being
                 performed at the Cardiss Collins P&DC.

We concluded the Cardiss Collins P&DC also had more than a sufficient number of
workhours and, hence, employees to process its workload based on our comparison to
similar size sites. For example, in FY 2007, the Cardiss Collins P&DC processed 1.7
billion pieces of mail compared to the Group 1 average of 1.8 billion pieces, yet used
almost 3 million workhours compared to the Group 1 average of 2.5 million workhours.
This comparison shows that Cardiss Collins P&DC processed less mail volume but
used more workhours than its counterparts, indicating that an excessive amount of
workhours was being used relative to its workload. This is further discussed in
Appendix E under the Mail Processing Efficiency heading.

Transportation Capacity

We reviewed the Cardiss Collins P&DC Postal Vehicle Services’ transportation
schedules and determined there was more than sufficient transportation to move mail to
stations and branches for delivery.




                                                    17
Timeliness of Mail Processing, Transportation, and Delivery                                               NO-AR-08-003
 in the Chicago District




                     We observed trucks on the dock at the Cardiss Collins
                     P&DC on November 28, 2007. Sufficient transportation
                     was in place to move mail to stations and branches for
                     delivery.

Delivery Capacity

The Chicago District had a sufficient number of carriers to deliver the mail, based on the
carrier to route ratio.11 The carrier to route ratio from FYs 2005 to 2007 for the Chicago
District ranged from 1.44 in FY 2005 to 1.37 in FY 2007, while the national average for
the same period was approximately 1.36.

We also noted the number of carrier routes in the Chicago District increased slightly (2
percent) from FYs 2005 to 2007. Nationally, the number of carrier routes decreased
almost 2 percent from FYs 2005 to 2007, primarily because of increases in the amount
of Delivery Point Sequenced (DPS) mail12 and the resulting adjustments to routes. In
addition, Chicago District routes had fewer possible deliveries per route than the
average of the six Major Metro Districts.13 In FY 2007, the Chicago District averaged
480 deliveries per carrier route, compared to the Major Metro District average of 501. If
the Chicago District had achieved the Major Metro District average number of deliveries
per route, 105 fewer delivery routes would have been required. See chart on next page.




11
   The number of carriers divided by the number of routes. A higher than a one-to-one ratio is necessary to staff the
routes for a 6-day workweek, which provides for carrier absences.
12
   DPS mail does not require the carrier to process this mail in the office and should result in fewer carrier workhours.
The Chicago District processed less DPS mail than the national average. (See Appendix E.)
13
   The Major Metro Districts are Philadelphia, New York, Capital Metro, San Francisco, Los Angeles and Chicago.




                                                           18
Timeliness of Mail Processing, Transportation, and Delivery                                            NO-AR-08-003
 in the Chicago District


                                               DELIVERIES PER ROUTE FY 200714

                           505



                           500
                                                                                        501

                           495



                           490
     Possible Deliveries




                           485



                           480
                                                480

                           475



                           470



                           465
                                              CHICAGO                  AVERAGE MAJOR METROS WITHOUT CHICAGO



These comparisons indicate the Chicago District has a sufficient carrier workforce, but
carrier routes need adjustment15 to ensure individual carrier workloads are appropriate.

Nevertheless, several factors reduced Chicago District’s ability to staff the routes. We
found that:

                    •        The Chicago District had a high number of carriers on limited duty. In FY 2007,
                             nearly 6 percent (or 203) of Chicago District carriers were on limited duty,
                             contrasted with the national average of 4.1 percent. Consequently, Chicago
                             capacity was diminished by 64 carrier positions.



14
   If the Chicago District had achieved the national average number of deliveries per route, it would have required 105
fewer delivery routes, or almost 126 fewer carriers. We divided the average possible deliveries in Chicago in FY
2007 by the Major Metro District average delivery per route of 501 to determine the earned routes and then
subtracted the actual routes from this number. To determine the number of carriers required for 6-day delivery, we
multiplied 105 by six and divided the total by five.
15
   Performing route inspections, which then can lead to route adjustments, is an outstanding management action that
still requires attention.




                                                                 19
Timeliness of Mail Processing, Transportation, and Delivery                                     NO-AR-08-003
 in the Chicago District


    •   Chicago District carriers used a higher percentage of sick leave than their
        national counterparts. Chicago District carrier sick leave represented 5.04
        percent of workhours, compared to the national 4.5 percent. Also, Chicago
        District delivery supervisors were more frequently absent due to sick leave. For
        example, Chicago District delivery supervisors used a higher percentage of sick
        leave hours (4.43 percent) than the average of all other districts (2.82 percent).

    •   There were fewer carrier supervisors in the Chicago District compared to national
        averages. The number of delivery supervisors in the Chicago District decreased
        by over 26 percent from FYs 2003 to 2007 compared to the national decrease of
        less than 4 percent. Consequently, Chicago District carrier supervisors had more
        carriers to manage than their national counterparts; there were 23 city carriers
        per delivery supervisor in the Chicago District in FY 2007, compared to the
        national ratio of 17 carriers per supervisor.

We did note the Chicago District’s delivery capacity recently improved as was evident
by the number of carriers returning by 5 p.m. The percentage of carriers returning from
the street to the office by 5 p.m. began to decline in November, FY 2006. By February,
FY 2007, only 47 percent of the carriers returned by 5 p.m. However, by the end of FY
2007, 81 percent of carriers returned by 5 p.m. — a significant improvement.
Consequently, more mail was being delivered before 5 p.m. than in the past. See chart
and photograph below.

 CARRIERS RETURNING BEFORE 5 P.M. – CHICAGO DISTRICT COMPARED TO
               NATIONAL AVERAGE, FYs 2004 TO 2007

         100


          90
                                                                              Sep FY2007, 81%

          80


          70
                                                Nov FY2006

          60


          50
                                                                        Feb FY2007, 47%
          40
                     D




                 Au Y2 4


                 D Y2 4




                 Au Y2 5


                 D Y2 5




                 Au Y2 6


                 D Y2 6




                 Au Y2 7
               O


                 Fe FY2 4
                 Ap FY2 4
                 Ju Y2 4


                 O FY2 4


                 Fe FY2 5
                 Ap FY2 5
                 Ju Y2 5


                 O FY2 5


                 Fe FY2 6
                 Ap FY2 6
                 Ju Y2 6


                 O FY2 6


                 Fe FY2 7
                 Ap FY2 7
                 Ju Y2 7
                  ec 20




                  ec 0




                  ec 0




                  ec 0
                ct




                  ct




                  ct




                  ct
                   n 00




                   n 00




                   n 00




                   n 00
                   b




                   b




                   b




                   b
                   g 00




                   g 00




                   g 00




                   g 00
                   r F 00




                   r F 00




                   r F 00




                   r F 00
                     FY




                     F 00




                     F 00




                     F 00
                     F




                     F




                     F




                     F
                     FY 7
                        20
                         00




                         00




                         00




                         00
                          0




                          0




                          0




                          0




                           07




                                              Chicago        National




                                                        20
Timeliness of Mail Processing, Transportation, and Delivery           NO-AR-08-003
 in the Chicago District




                 .
                On November 26, 2007, we noted that carriers at the
                Ravenswood Station returned on time.

Click here to return to report.




                                                    21
Timeliness of Mail Processing, Transportation, and Delivery                                       NO-AR-08-003
 in the Chicago District



              APPENDIX E: DETAILED ANALYSIS OF MAIL PROCESSING,
                  TRANSPORTATION, AND DELIVERY EFFICIENCY

Mail Processing Efficiency

Cardiss Collins P&DC productivity has historically been below the average of Group 1
sites. In addition, while average productivity increased from FYs 2005 to 2007,
productivity at the Cardiss Collins P&DC declined. See charts below.16

                                CARDISS            AVERAGE GROUP                 CARDISS
                  FISCAL
                               COLLINS FHP             1 FHP                     COLLINS
                   YEAR
                              PRODUCTIVITY          PRODUCTIVITY                 RANKING
                    2005           603                  685                        28TH
                    2006           469                  720                        35TH
                    2007           570                  742                        34TH

                             FY 2007 GROUP 1 FHP PRODUCTIVITY

     1400




     1200




     1000



                                                           GROUP 1 AVERAGE FHP
     800
                                                            PRODUCTIVITY = 742

                                                                                           Cardiss Collins
                                                                                                570
     600




     400




     200




       0




16
  We computed FHP productivity by dividing FHP volume by workhours for FY 2007 for all Group 1 plants. The
average does not include Cardiss Collins P&DC data.




                                                      22
Timeliness of Mail Processing, Transportation, and Delivery                                       NO-AR-08-003
 in the Chicago District


In order to achieve the average FY 2007 FHP productivity, the Cardiss Collins P&DC
would need to reduce workhours by 697,245,17 which could produce a cost avoidance of
more than $231 million in labor savings during a 10-year period. An improvement in
productivity would also improve the timeliness of mail processing. Our analysis of the
most efficient Group 1 sites showed the 10 best sites achieved an overnight service
score above the Group 1 average. In contrast, seven of the 10 poorest performing sites
had overnight scores below the average overnight service scores. In addition, our
observations also found that numerous opportunities existed to reduce workhours
based on time wasting practices. For example, we found numerous instances of
employees not actively engaged in processing the mail and not reporting to their
assigned workstations timely. We also found employees were not always using
automated equipment properly resulting in machine jams, and some did not display a
sense of urgency to process mail timely.

We identified several opportunities to improve efficiencies and process mail in a timely
manner. For example, we found the Cardiss Collins P&DC had difficulty meeting
outgoing mail clearance times, the national average for sorting letter mail into delivery
sequence order, and the national productivity average for DBCS.

Outgoing Clearance Times. From February to December 2006, the Cardiss Collins
P&DC met its 11 p.m. outgoing clearance target approximately 85 percent of the time,
which was significantly below the national average of 92.5 percent. Outgoing mail
cleared by 11 p.m. improved in FY 2007 and remained above the national average after
May 2007. This improvement reduced mail delays and enhanced service scores. See
chart on next page.




17
  By the end of FY 2007, the Cardiss Collins P&DC reduced workhours by almost 7 percent (or over 219,000);
indicating management could accomplish this reduction well within the 10-year period.




                                                       23
Timeliness of Mail Processing, Transportation, and Delivery                   NO-AR-08-003
 in the Chicago District


                        OUTGOING MAIL CLEARED BY 11 P.M. —
                       NATIONAL VERSUS CARDISS COLLINS P&DC
                         FEBRUARY 2006 TO SEPTEMBER 2007

         120%


         100%


          80%


          60%


          40%


          20%


           0%
                 G 6




                 G 7
                 V 6
                         6




                 C 6




                         7
               JU 0 6




               JU 00 7
              JA 06

              FE 0 07
                 R 6


              JU 00 6




                 R 7


              JU 00 7
                AR 0 6




                AR 0 7
                AY 06




                AY 07
                      06




                      07
                       0
              AU 00




              AU 00
              SE 00




                       0




              SE 00
              AP 00




              AP 00
                    20

                    20
                    20
                    20




                    20




                    20
                    20




                    20
                    20




                    20
                    2




                    2
                    2




                    2
                    2
                    2




                    2
                    2
                    2




                    2
                  T
                  L




                  L
                 N




                 N
                 N
           B




                 B
                 P




                 P
                C
              NO
         FE




              DE
              O
               M



              M




              M



              M
                                                 National     Chicago



Delivery Point Sequencing. The Cardiss Collins P&DC consistently ranked below the
national average for letters sorted in DPS. During FYs 2006 and 2007, the Cardiss
Collins P&DC processed letter mail in DPS an average of 69 and 72 percent of the time,
respectively. Although the percentage of DPS mail increased during FY 2007, the
percentage continues to be well below the national average of 83 percent.
Consequently, we concluded Chicago District mail carriers manually case a higher
percentage of mail than their national counterparts do, resulting in increased office time
and possible mail delays. See chart on the next page.




                                                    24
Timeliness of Mail Processing, Transportation, and Delivery                                                                                                                                                                                                      NO-AR-08-003
 in the Chicago District


                                    PERCENTAGE OF DELIVERY POINT SEQUENCING —
                                       NATIONAL VERSUS CARDISS COLLINS P&DC
                                                  FYs 2003 TO 2007

                               90



                               80



                               70



                               60
              DPS PERCENTAGE




                               50



                               40



                               30



                               20



                               10



                                0
                                    O



                                              Ja



                                                           Ap



                                                                     Ju



                                                                                O



                                                                                          Ja



                                                                                                       Ap



                                                                                                                 Ju



                                                                                                                            O



                                                                                                                                      Ja



                                                                                                                                                   Ap



                                                                                                                                                              Ju



                                                                                                                                                                         O



                                                                                                                                                                                   Ja



                                                                                                                                                                                                Ap



                                                                                                                                                                                                          Ju



                                                                                                                                                                                                                     O



                                                                                                                                                                                                                               Ja



                                                                                                                                                                                                                                            Ap



                                                                                                                                                                                                                                                      Ju
                                    ct




                                                                                ct




                                                                                                                            ct




                                                                                                                                                                         ct




                                                                                                                                                                                                                     ct
                                                n




                                                                       lF




                                                                                            n




                                                                                                                   lF




                                                                                                                                        n




                                                                                                                                                                lF




                                                                                                                                                                                     n




                                                                                                                                                                                                            lF




                                                                                                                                                                                                                                 n




                                                                                                                                                                                                                                                        lF
                                                            rF




                                                                                                        rF




                                                                                                                                                    rF




                                                                                                                                                                                                 rF




                                                                                                                                                                                                                                             rF
                                       FY




                                                                                   FY




                                                                                                                               FY




                                                                                                                                                                            FY




                                                                                                                                                                                                                        FY
                                                FY




                                                                                            FY




                                                                                                                                        FY




                                                                                                                                                                                     FY




                                                                                                                                                                                                                                 FY
                                                                         Y2




                                                                                                                     Y2




                                                                                                                                                                  Y2




                                                                                                                                                                                                              Y2




                                                                                                                                                                                                                                                          Y2
                                                              Y2




                                                                                                          Y2




                                                                                                                                                      Y2




                                                                                                                                                                                                   Y2




                                                                                                                                                                                                                                               Y2
                                         20




                                                                                     20




                                                                                                                                 20




                                                                                                                                                                              20




                                                                                                                                                                                                                          20
                                                   2




                                                                                               2




                                                                                                                                           2




                                                                                                                                                                                        2




                                                                                                                                                                                                                                    2
                                                                            0




                                                                                                                        0




                                                                                                                                                                     0




                                                                                                                                                                                                                 0




                                                                                                                                                                                                                                                             0
                                                                 0




                                                                                                             0




                                                                                                                                                         0




                                                                                                                                                                                                      0




                                                                                                                                                                                                                                                  0
                                                    00




                                                                                                00




                                                                                                                                            00




                                                                                                                                                                                         00




                                                                                                                                                                                                                                     00
                                                                           03




                                                                                                                       04




                                                                                                                                                                    05




                                                                                                                                                                                                                06




                                                                                                                                                                                                                                                            07
                                         03




                                                                03




                                                                                     04




                                                                                                            04




                                                                                                                                 05




                                                                                                                                                         05




                                                                                                                                                                              06




                                                                                                                                                                                                     06




                                                                                                                                                                                                                          07




                                                                                                                                                                                                                                                 07
                                                       3




                                                                                                   4




                                                                                                                                               5




                                                                                                                                                                                            6




                                                                                                                                                                                                                                        7
                                                                                                                                  National              Chicago




DBCS Productivity. In FY 2007, the Cardiss Collins P&DC processed 7,409 pieces per
hour on a DBCS, compared to the national average of 7,767 pieces. See chart on next
page.




                                                                                                                                      25
Timeliness of Mail Processing, Transportation, and Delivery                                         NO-AR-08-003
 in the Chicago District


        BREAKTHROUGH PRODUCTIVITY INDEX PERFORMANCE FOR DBCS –
                     CARDISS COLLINS P&DC, FY 2007

     12,000
                                                                 National Average
     10,000                                                           7,767
                                                                  Chicago 7,409
                                                                   Ranks 24th
     8,000

     6,000

     4,000

     2,000

        0




DBCS productivity at the Cardiss Collins P&DC improved slightly during FY 2007, as did
its ranking among Group 1 sites, due to overhaul of the machines. Improving DBCS
productivity will increase the Cardiss Collins P&DC’s ability to sort mail in DPS and
process letter mail within the operational window.

Transportation Efficiency

We reviewed transportation throughout the Chicago District and did not identify any
issues that affected the timely delivery of mail.

Delivery Efficiency

The Chicago District had opportunities to improve efficiencies both in the office and on
the street that would allow it to deliver mail in a timelier manner. We found that
improving office efficiency would allow carriers additional street time to complete
delivery by 5 p.m. For example, the Chicago District Office Efficiency Index (OEI)18 has


18
  The Postal Service uses the OEI to measure office performance. OEI is calculated by dividing the possible
deliveries by the office time.




                                                        26
Timeliness of Mail Processing, Transportation, and Delivery                     NO-AR-08-003
 in the Chicago District


been well below the national average since FY 2003. Consequently, the Chicago
District city carriers used more time in the office than necessary. See chart below.
                             OFFICE EFFICIENCY INDEX —
               CHICAGO DISTRICT COMPARED TO NATIONAL AVERAGE
                       QUARTER 1 FY 2003 TO QUARTER 4 FY 2007
        250



        200



        150



        100



         50



          0
                 FY 3

                 FY 3

                 FY 3

                 FY 3

                 FY 4

                 FY 4

                 FY 4

                 FY 4

                 FY 5

                 FY 5

                 FY 5

                 FY 5

                 FY 6

                 FY 6

                 FY 6

                 FY 6

                 FY 7

                 FY 7

                 FY 7
                      07
                      0

                     00

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 20 0

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200

              Q 200
          20




                   20
                   2
        FY
     1

           2

               3

               4

               1

               2

               3

               4

               1

               2

               3

               4

               1

               2

               3

               4

               1

               2

               3

               4
    Q

          Q

              Q




                                               CHICAGO        NATIONAL



In addition, in spite of DPS mail increases, office time in the Chicago District did not
decrease to the same degree as the national average. For example, from FYs 2003 to
2007, the Chicago District’s DPS mail volume increased 34 percent but office time only
decreased 6 percent. Nationally, DPS mail increased approximately 18 percent,
resulting in a 10 percent office hour decrease. Consequently, Chicago District delivery
units used more time in the office than their national counterparts.

Improving street efficiency would also increase the Chicago District’s opportunities to
deliver mail before 5 p.m. Nationally, in FY 2007, letter carriers spent approximately 32
percent of their time in the office and 68 percent of their time on the street delivering
mail. During the same period, letter carriers in the Chicago District spent 38 percent of
their time in the office and 62 percent of their time on the street. Click here to return to
report.




                                                    27
Timeliness of Mail Processing, Transportation, and Delivery                     NO-AR-08-003
 in the Chicago District


              APPENDIX F: DETAILED ANALYSIS INTERNAL CONTROLS

Generally, internal controls concerning the timely processing, transporting, and delivery
of mail were functioning as intended. However, we found instances where the Chicago
District could improve controls.

    •   The Cardiss Collins P&DC needed to improve controls over color-coding. Our
        initial observations conducted in April 2007 indicated that 29 percent of the
        containers examined were not properly color-coded. However, during our
        observations in November 2007, we found that color-coding had improved and
        less than 5 percent of the containers did not have a color code. Improved color-
        coding will allow the Cardiss Collins P&DC to prioritize its workload and ensure
        first-in, first-out mail processing.

    •   Our initial observations conducted in April 2007 indicated the Chicago District
        Address Management System had not been updated or corrected and
        consequently was not accurate. Management stated they are updating and
        correcting the database. Updating the Address Management System will allow
        better sequencing of mail and reduce carrier office time. We also noted in our
        initial observations that there were no integrated operating plans at the delivery
        units. Management stated they are still in the process of implementing these
        plans at the delivery units.

Click here to return to report.




                                                    28
Timeliness of Mail Processing, Transportation, and Delivery                             NO-AR-08-003
 in the Chicago District



                     APPENDIX G: DETAILED ANALYSIS
        CHICAGO DISTRICT’S SERVICE PERFORMANCE IN COMPARISON TO
                   NATIONAL AVERAGE SERVICE TRENDS,
                 QUARTER 4 FY 2004 TO QUARTER 4 FY 2007


                                                               Chicago              National
                                                               Ranking    Chicago   Average
                                                    Fiscal    Compared Service      Service
           Service Category          Quarter         Year     to National  Score     Score
                                       4             2007       79 of 79   93.67     96.04
                                       3             2007       79 of 79   92.36     95.80
                                       2             2007       79 of 79   89.84     95.16
                Overnight              1             2007       79 of 79   88.88     95.06
                                       4             2006       79 of 79   91.12     95.42
                                       4             2005       74 of 79   93.89     95.21
                                       4             2004       58 of 79   94.87     95.40
                                       4             2007       78 of 80   91.45     93.19
                                       3             2007       78 of 80   87.51     92.13
                                       2             2007       80 of 80   76.35     89.44
          Two- and Three-Day           1             2007       78 of 80   77.17     88.36
                                       4             2006       78 of 80   83.62     90.85
                                       4             2005       72 of 80   88.25     90.53
                                       4             2004       46 of 80   91.14     91.23
                                       4             2007       72 of 78    92.8     93.91
                                       3             2007       77 of 78   89.65     93.09
                                       2             2007       78 of 78   80.99     91.17
                Two-Day                1             2007       78 of 78   81.41     90.79
                                       4             2006       78 of 78   85.86     91.71
                                       4             2005       64 of 78   90.14     91.49
                                       4             2004       30 of 78   92.86     91.98
                                       4             2007       76 of 80   89.38     92.53
                                       3             2007       78 of 80   84.21     91.25
                                       2             2007       80 of 80   69.10     87.57
               Three-Day               1             2007       79 of 80   70.58     86.17
                                       4             2006       77 of 80   80.44     90.24
                                       4             2005       76 of 80   85.46     89.80
                                       4             2004       67 of 80   88.81     90.62

Click here to return to report.




                                                    29
Timeliness of Mail Processing, Transportation, and Delivery                  NO-AR-08-003
 in the Chicago District


                        APPENDIX H: DETAILED ANALYSIS
                 POSTAL SERVICE INITIATIVES IN PLACE OR PLANNED

MAIL PROCESSING

Overhauled mail processing equipment.

Retrained maintenance employees.

Retrained machine operators.

Identified and addressed performance issues.

Implemented random audits of operators and maintenance employees to ensure
compliance with procedures.

Trained all management on improvement processes in automation.

Improved communication and coordination between the plant and delivery stations.

Increased management structure to create more consistency throughout the plant.

Established tour turnover meetings for daily accountability for supervisors and increased
cross-functional accountability.

Established a standard operating procedure to address overtime usage.

Completing a scheduling and staffing study for the plant to ensure they schedule the
proper number of employees for each shift.

Developed a facility off-load plan by mail category, shape, and processing window in the
event that actual volume exceeds capacity or there is a power or equipment loss.

Streamlined mail sort plans for better mail flow.

Trained mail processing personnel on how to properly record on hand mail in the MCRS
and properly color code mail.

DELIVERY

Completed Walk Every Route Project and 2,464 Address Management System Quality
Reviews. Began executing a plan to walk every route on an annual basis.

Developed and established a system to track and record late mail arrivals from other
facilities and missent mail from stations.




                                                    30
Timeliness of Mail Processing, Transportation, and Delivery                   NO-AR-08-003
 in the Chicago District



Created a team to follow up on quality reviews and standardize and improve the
Address Management System database process.

Completed delivery management training for 238 supervisors/managers.

Hired 335 city carriers.

Executed a plan to ensure Delivery Standard Operating Procedures and Integrated
Operating Plan are in place and effective.

Implemented Missent Mail and Hot Case standard operating procedures.

Executed a plan to increase DPS mail.

Executed a plan to match workhours to workload through the use of DOIS and the City
Delivery Pivoting Opportunity Model application.

Increased Customer Service Operations management structure to allow focus that is
more concentrated.

Implemented daily meetings between Post Office Operations, Plant Operations,
Maintenance, and Transportation.

TRANSPORTATION

Working to identify excess PVS resources and analyze transportation resources once
Cardiss Collins P&DC completes reorganization of their processing structure.

Monitoring the Cardiss Collins P&DC plan for improving communication and
coordination between the plant and delivery stations.

Reviewed scheduled transportation between the Cardiss Collins P&DC and the Chicago
Bulk Mail Center and discontinued the “as-needed” trips.

Improved data collection activities associated with systems such as Surface Visibility
and Vehicle Information Transportation Analysis and Logistics.

Continuing to train and supervise employees who work with transportation systems.

Click here to return to report.




                                                    31
Timeliness of Mail Processing, Transportation, and Delivery                         NO-AR-08-003
 in the Chicago District


            APPENDIX I: CALCULATION OF FUNDS PUT TO BETTER USE
                            AND REVENUE AT RISK

              Click here to return to report. Click here to return to Appendix B.
                              Click here to return to Appendix D.


                                  FUNDS PUT TO BETTER USE


                                                                Timeframe: 10 Fiscal Years
                                                                                  Discounted
                                                                                   Savings
     Employee Category                     Workhour           Undiscounted       (Net Present
          Impacted                         Reduction            Savings              Value)
  Function 1 Mail Processing                  697,245            $287,860,656       $231,337,397
 Clerk and Mail Handler Hours

NOTES

    •   We based the 697,245 workhour reduction on management’s plan to reduce
        workhours over a 10-year period, based on FY 2007 usage of approximately 3
        million workhours.
    •   We calculated the cost avoidance using the savings in hours multiplied by the
        escalated labor rate over a 10-year period.
    •   We calculated the net present value using the December 6, 2007, discount rate
        of 4.5 percent over a 10-year period.
    •   We based labor rates on the Postal Service’s March 6, 2006, published rates for
        a level 05 (PS-05) mail processing clerk.
    •   The yearly escalation factor is 2.2 percent, based on the Postal Service’s
        Decision Analysis Factors, effective December 6, 2007.

FUNDS PUT TO BETTER USE — Funds management can use more efficiently by
implementing recommended actions.




                                                    32
Timeliness of Mail Processing, Transportation, and Delivery                           NO-AR-08-003
 in the Chicago District


              REVENUE AT RISK (NON-MONETARY IMPACT)
    AMOUNT OF DELAYED MAIL AT THE CARDISS COLLINS P&DC IN FY 2007

                                          Revenue per           Total       1/2 of
                         Revenue Pieces      Piece             Delayed     Delayed Revenue at Risk
        Package Services $541,198 294,556    $1.84            3,183,613   1,591,807  $2,924,682

NOTES

    •     We calculated the revenue per piece amount by using the reported revenue and
          pieces by mail classification on the Quarter 4 FY 2006 Revenue, Pieces, and
          Weight report.
    •     We multiplied the revenue per piece amount times the amount of delayed mail
          reported at the Cardiss Collins P&DC in FY 2007, and then divided it in half to
          allow for mailpieces that were more than one day old.
    •     We included Package Service mail in this calculation, as it is the most vulnerable
          to competition from other package delivery companies.

REVENUE AT RISK — Revenue deemed to be at risk of loss due to unreliable service
that may convince our customers to seek other providers. Although the Private Express
statutes allow the Postal Service a monopoly on the carriage and delivery of letters, the
statutes can be suspended for private services that support the interests of the general
public. For example, revisions to the statutes made in 1979 gave rise to delivery
services such as Federal Express.




                                                    33
Timeliness of Mail Processing, Transportation, and Delivery                    NO-AR-08-003
 in the Chicago District


           APPENDIX J: PRIOR RECOMMENDATIONS THAT REMAIN OPEN

Management generally agreed with the findings in the reports listed below and has or is
taking corrective action on our recommendations.

Recommendations made in Timely City Delivery–Chicago District (Report Number
DR-AR-08-001, dated October 11, 2007)

We recommended the District Manager/Postmaster, Chicago District:

            1. Implement Delivery Standard Operating Procedures in all delivery units.

            2. Provide appropriate oversight to ensure delivery unit Standard Operating
               Procedures are in place, operating as intended, and achieving desired
               results.

We recommended the Vice President, Great Lakes Area:

            3. Validate that the Chicago District has implemented Delivery Standard
               Operating Procedures in all delivery units.

            4. Provide appropriate oversight to ensure the Chicago District is monitoring
               delivery unit performance.

Recommendations made in Timeliness of Mail Processing at the Chicago, Illinois
Cardiss Collins Processing and Distribution Center (Report Number NO-AR-07-
012, dated September 28, 2007)

To improve the timely processing of mail, we recommended the District
Manager/Postmaster, Chicago District, and the Senior Plant Manager, Cardiss Collins
P&DC:

            1. Monitor delayed mail on a daily basis and develop action plans, if
               necessary, to ensure the timely processing of mail.

            2. Improve supervision by ensuring that supervisors are properly trained and
               held accountable for results in their operation.

            3. Ensure that employees are held accountable by establishing performance
               goals, monitoring achievement of those goals, and rating performance
               based on goals.

            4. Ensure that timely and proper preventive maintenance is conducted on
               mail processing equipment.




                                                    34
Timeliness of Mail Processing, Transportation, and Delivery                    NO-AR-08-003
 in the Chicago District


            5. Ensure proper staffing and use of overtime in relation to workload.

            6. Ensure that proper plans are developed and followed for events that will
               affect mail processing operations, such as flat sorter refurbishment,
               removal of equipment, sort plan changes, retrofits, new equipment
               installations, and employee attrition.

            7. Develop contingency plans in the event that mail cannot be processed
               timely at the Cardiss Collins Processing and Distribution Center, including
               the redirection of the mail processing to other facilities.

            8. Provide consistent supervision.

Recommendations made in Impact of Transportation on Chicago District
Performance (Report Number NL-AR-07-008, dated September 28, 2007)

We recommended the District Manager/Postmaster, Chicago District, and the Senior
Plant Manager, Cardiss Collins Processing and Distribution Center, coordinate to:

            1. Analyze Chicago District PVS operations to identify excess PVS resources
               they can reduce and apply to other critical requirements.

            2. Improve communication and coordination between processing facilities
               and local post offices by improving local transportation planning and
               scheduling.

We recommended the Vice President, Great Lakes Area Operations:

            3. Require managers at the Cardiss Collins Processing and Distribution
               Center and the Chicago Bulk Mail Center to properly plan transportation
               between the two facilities and properly account for mail in trailers.

            4. Require managers to improve data collection by properly training and
               supervising employees on transportation systems, such as Surface
               Visibility.

Click here to return to report. Click here to return to new recommendations.




                                                    35
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District


                        APPENDIX K: MANAGEMENT’S COMMENTS




                                                    36
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District




                                                    37
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District




                                                    38
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District




                                                    39
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District




                                                    40
Timeliness of Mail Processing, Transportation, and Delivery   NO-AR-08-003
 in the Chicago District




                                                    41
